January 12, 2009

MARIE THERESE DOMINGUEZ
VICE PRESIDENT, GOVERNMENT RELATIONS AND PUBLIC POLICY

SUSAN BROWNELL
VICE PRESIDENT, SUPPLY MANAGEMENT

VICE PRESIDENTS, AREA OPERATIONS


SUBJECT: Management Advisory Report – Stamp Distribution Operations
         (Report Number MS-MA-09-002)

This report presents the results of our self-initiated review of the Postal Service’s Stamp
Distribution Operations (Project Number 09RG001MS000). Our objective was to
determine whether the Postal Service can re-engineer its accountable paper fulfillment
operations to achieve cost savings. See Appendix A for additional information about
this audit.

Conclusion

The Postal Service has already initiated efforts to re-engineer its accountable paper
fulfillment operations to achieve cost savings. Supply Management is preparing a
Decision Analysis Report (DAR) requesting funding to implement the results of prior
studies in this area. Management expects to save between $2 million and $14 million
annually by consolidating operations.

Management is Pursuing Opportunities to Re-Engineer the Accountable Paper
Fulfillment Operations and Achieve Cost Savings

The Postal Service has identified opportunities to re-engineer its accountable paper
fulfillment network and save between $2 million and $14 million annually by
consolidating operations. In 1999, Headquarters Stamp Services officials
commissioned a study to determine the optimum number and locations of facilities
necessary to efficiently manage the Postal Service’s accountable paper fulfillment
operations. The study recommended that the Postal Service consolidate its
accountable paper fulfillment network from 155 to 12 locations. The study did not
indicate the cost savings that would result from the consolidation. Stamp Services
management indicated they did not receive funding to implement the study’s
Stamp Distribution Operations                                                 MS-MA-09-002



recommendations and also indicated that the technology necessary to implement the
recommendations did not exist.

In 2006, Headquarters Supply Management officials conducted a similar study. With
the assistance of Headquarters Network Operations, Supply Management’s Asset
Management Integration (AMI) team created three models. The first model mapped the
current location of each accountable paper fulfillment site, its area of coverage, and its
demand patterns. A second model assumed a 2-day Registered Mail™ shipment
service from accountable paper fulfillment centers to post offices within the continental
U.S. and recommended 10 accountable paper fulfillment sites. The third model
assumed a 4-day Registered Mail service from the accountable paper fulfillment sites to
post offices within the continental U.S. and recommended five accountable paper
fulfillment sites.

The AMI team refined the 4-day Registered Mail fulfillment network model
recommendation based on the planned change to Priority Mail™ and identified Postal
Service owned/leased sites. The refined recommendation suggests maintaining seven
accountable paper fulfillment sites and keeping 11 stamp distribution offices (SDOs) as
they are until additional Postal Service owned or leased space is available.
Government Relations and Supply Management have adopted the AMI team’s refined
recommendations and the AMI established the following goals.




                                       Redacted




Although plan implementation is slightly behind schedule, we believe management
officials are taking appropriate action to streamline the Postal Service’s accountable
paper fulfillment operations and should continue with their efforts. Accordingly, we are
not making any recommendations pertaining to this subject at this time.



                                            2
Stamp Distribution Operations                                               MS-MA-09-002




Management reviewed a draft copy of this report and did not suggest any changes.

We appreciate the cooperation and courtesies provided by your staff during our audit. If
you have any questions or need additional information, please contact Robert Mitchell,
Director, Sales and Service, or me at (703) 248-2100.

   E-Signed by Tammy Whitcomb
 VERIFY authenticity with ApproveIt




Tammy L. Whitcomb
Deputy Assistant Inspector General
 for Revenue and Systems

Attachment

cc: Patrick R. Donahoe
    Harold G. Walker
    Katherine S. Banks




                                           3
Stamp Distribution Operations                                                                            MS-MA-09-002



                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service purchases and distributes accountable paper1 to its network of over
39,000 retail units across the U.S. for re-sale to the general public. It accomplishes this
fulfillment effort through its network of 79 SDOs2, two stamp services centers3 (SSCs),
four Accountable Paper Depositories4 (APDs), and one Stamp Fulfillment Services5
(SFS) site.

The SFS and SSCs report to the Vice President, Government Relations and Public
Policy, and the SDOs and APDs report to the Vice Presidents, Area Operations.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether the Postal Service can re-engineer accountable
paper fulfillment operations to achieve cost savings. Our scope was the Postal
Service’s accountable paper fulfillment network. To accomplish our objective, we:

    •    Reviewed Postal Service criteria for aligning accountable paper fulfillment sites.

    •    Reviewed accountable paper fulfillment operations studies Postal Service
         officials conducted in 1999 and 2006.

    •    Reviewed a flowchart of the movement of accountable paper from vendors
         through delivery to Associate Offices6 and appropriate recording in financial
         accounts.

    •    Discussed the Postal Service’s ongoing efforts to re-engineer its accountable
         paper fulfillment operations with officials from Headquarters Supply
         Management, Government Relations and Public Policy, and the nine area
         offices.


1
  Accountable paper comprises postage stamps, stamped envelopes and cards, international reply coupons,
migratory bird hunting and conservation stamps, philatelic products, blank money order forms, and items awaiting
destruction.
2
  The SDO is a Postal Service unit other than the parent sectional center facility (SCF) that is, for security reasons,
designated to supply postage stamp stock to post offices, stations, branches, and contract stations within its service
area.
3
  An SSC is a Postal Service unit that serves a centralized stamp distribution function. An SSC encompasses areas
formerly serviced by multiple SDOs, provides accountable paper stock, and defines ordering cycles for units within its
service area regardless of size.
4
  A large SDO that stores Postal Service accountable paper, such as stamps and money orders.
5
  The Postal Service unit that supplies stamped envelopes to cost ascertainment grouping A-G Post Offices ordering
from an SDO. This facility receives direct shipments of stamps from suppliers and serves the stamp-collecting
community and customers requesting stamps outside Postal Service channels.
6
  A post office that reports to a larger post office or that is within the service area of a SCF. It usually receives and
dispatches all mail classes to and from the SCF.



                                                            4
Stamp Distribution Operations                                                  MS-MA-09-002



   •   Reviewed pertinent information for each accountable paper fulfillment site —
       including the number of employees, total budget, and actual expenses — for
       fiscal years 2007 and 2008.

   •   Observed operations and interviewed employees at the Carol Stream and
       Chicago accountable paper sites to understand their role in the Postal Service’s
       accountable paper fulfillment operations network.

We conducted this review from October 2008 through January 2009 in accordance with
the President’s Council on Integrity and Efficiency, Quality Standards for Inspections.
We relied on pertinent information for accountable paper fulfillment operations —
including the number of accountable paper fulfillment locations, number of employees,
total budget, and actual expenses — obtained from Postal Service officials. We did not
directly audit the data, but performed a limited data integrity review to support our data
reliance.

PRIOR AUDIT COVERAGE

The U.S. Postal Service Office of Inspector General has not issued any reports related
to our objective.




                                             5
